OIG Report to Bicameral Task Force on Climate Change
Skip top navigation
Skip to content
Español | Other Languages
U.S. Equal EmploymentOpportunity Commission
Home
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Employees & Applicants
Overview
Coverage
Timeliness
Filing A Charge
How to File
Charge Handling
Confidentiality
Mediation
Remedies
Existing Charges
Filing a Lawsuit
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Employers
Overview
Coverage
Charge Handling
Resolving a Charge
Remedies
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Recordkeeping
EEO Reports/Surveys
"EEO Is The Law" Poster
Training
Other Employment Issues
Federal Agencies
Overview
Federal Employees & Applicants
Federal Complaint Process
Discrimination by Type
Other Federal Protections
Prohibited Practices
Federal EEO Coordination
Federal Agency EEO Directors
Laws, Regulations, Guidance & MOUs
Management Directives & Federal Sector Guidance
Federal Sector Alternative Dispute Resolution
Federal Sector Reports
Appellate Decisions
Digest of EEO Law
Form 462 Reporting
Federal Training & Outreach
Contact Us
Contact EEOC
Find Your Nearest Office
Frequently Asked Questions
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Home > About EEOC > Office of Inspector General
U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
Washington, D.C.  20507
Office of Inspector General
March 28, 2013
The Honorable Henry A. Waxman
Co-Chair, Bicameral Task Force on Climate Change
Ranking Member, Committee on Energy and Commerce
United States House of Representatives
2204 Rayburn House Office Building
Washington D.C. 20510
The Honorable Sheldon Whitehouse
Co-Chair, Bicameral Task Force on Climate Change
Chairman, Subcommittee on Oversight, Committee on Environment and
Public Works
United States Senate
530 Hart Senate Office Building
Washington D.C. 20510
The Honorable Edward J. Markey
Co-Chair, Bicameral Task Force on Climate Change
Ranking Member, Committee on Energy Natural Resources
United States House of Representatives
2108 Rayburn House Office Building
Washington D.C. 20510
The Honorable Benjamin L. Cardin
Co-Chair, Bicameral Task Force on Climate Change
Chairman, Subcommittee on Water and Wildlife, Committee on Environment and
Public Works
United States Senate
509 Hart Senate Office Building
Washington D.C. 20510
Dear Gentleman:
We are pleased to respond to your request for information regarding how the U. S. Equal Employment Opportunity Commission (EEOC) is carrying out policies to address climate change. In our efforts to ascertain the information to respond to your
two-part request, we were referred to the EEOC's Director of the Central Services Division (CSD), Office of the Chief Financial Officer, who provided the data for our analysis and response to you.
Part One:
First of all, you asked our office to: (1) identify the existing requirements in legislation, regulation, executive order, and other directives that apply to the EEOC; (2) assess whether it is meeting these requirements, and (3) if it is not
fully meeting the requirements, make recommendations for improving its performance.
Response
According to the CSD:  The Equal Employment Opportunity Commission is exempt from maintaining a policy to address climate change in accordance with the Energy Independence and Security Act (EISA) of 2007, and Executive Order (EO) 13514
(2009) because the General Services Administration (GSA) is the lease authority for EEOC controlling the types and locations of buildings that EEOC occupies.
Our review disclosed that the EEOC determined-during its assessment and implementation of the National Energy Conservation Policy Act (NECPA), the Energy Policy Act of 1992 (EPACT), and Executive Order 13123, Greening the Government Through
Efficient Energy Management, and the Presidential Memorandum of May 3, 2001, on Energy Conservation at Federal Facilities-that the GSA was responsible for meeting any reporting requirements since the EEOC leased its space from the GSA. It is the
EEOC's position that the same exemption to those reporting requirements apply to EISA and EO 13514, since the GSA is still the lease authority for EEOC and controls the types and locations of buildings that it occupies. In light of the foregoing,
items number 2 and number 3 are not applicable.
Notwithstanding being exempt from the reporting requirements, according to the CSD:
The  EEOC has actively controlled financial risk stemming from climate change since 1999 to meet EISA and EO 13514 Federal energy conservations for Greenhouse Gas Management, Sustainable Buildings and Communities, Electronic Product and
Services, Fleet and Transportation Management, and Waste Reduction as outlined below:
EEOC reported its energy conservation measures to the Department of Energy on September 29, 1999, October 9, 2001 and October 26, 2005; and corresponding guidance to EEOC employees on December 12, 2000 and October 19, 2005.
Greenhouse Gas (GHG) Management:  EEOC created a Vehicle Allocation Methodology (VAM) in 2012 to comply with Presidential Memorandum-Federal Fleet Performance, May 24, 2011 and EO 13514 to reduce petroleum use in the Federal
Fleet.  EEOC is on pace in accordance with the VAM to convert all conventional gas fueled vehicles to GHG or alternative E85 use for our 81 leased vehicles by 2015.  Additionally, EEOC created and is executing an internal Vehicle
Replacement Plan that outlines EISA and EO 13514 goals to maintain the smallest sized, least petroleum dependent fleet possible.
Sustainable Buildings and Communities:  GSA is the authority for lease acquisitions for EEOC occupied space.  However, EEOC has input during various phases of space acquisitions from the initial request to lease award.  The
majority of EEOC buildings are located in Class A buildings in metropolitan or urban areas in proximity to public transportation, which keeps the demand for a dedicated fleet at an even level.  Additionally, EEOC is pursuing efforts in
accordance with EO 13514, Presidential Memorandum-Dispose of Unneeded Federal Real Estate, June 10, 2010 and Telework Enhancement Act of 2010 to reduce or "right-size" EEOC occupied space in future lease acquisitions by a) reducing the quantity of
space acquired to account for teleworking employees and b) requesting space according to office employee size, not the amount of space an office formerly occupied.
Electronic Products and Services:  EEOC encourages and promotes electronic systems in all aspects of daily operations. Examples include, but are not limited to motion sensors to conserve energy consumption at the Headquarters and newer
lease acquisitions locations, such as the Richmond and Miami office buildings.  EEOC minimizes use of overtime utilities at all locations during non-duty hours for essential activities.  All recently leased multi-functioning devices, such
as network copiers, printers, facsimiles, and scanners are energystar rated, equipped with energy conversation mode for reduced energy conversation when not in use.  EEOC uses the fully automated and electronic processing for travel, mail, and
internal acquisition services, as well as some parts of fixed asset management.  EEOC employs technology in several different ways to enhance work in the office, on official travel, or at home such as transportable desk laptops, VPN log-in to
access office electronic files from any location, and capability to convert personal smart phones for office use.
Fleet Transportation Management:  In addition to the GHG initiatives, EEOC has one office that voluntarily participates in the GSA Plug In Vehicle (PIV) program, and anticipates increased participation as GSA secures more station
capable of cites capable of providing electrical vehicle plug-in services.
Waste Reduction:  EEOC participates with lessors in recycling programs.  Additionally, EEOC's Records Management program includes an annual review of Headquarters offices to ensure that records are being purged or transferred to the
National Archives and Records Administration or National Records Centers to minimize the accumulation of paper waste products.  To the extent possible, unneeded, but useable information technology property and salvageable property are submitted
to GSA for sale, transfer, or donation to Federal, state, or educational institutions.  On a semi-annual basis, EEOC conducts an Agency-wide property certification to maintain an accurate account of needed and usable property; and to promote
GSA turn-in or internal re-assignment of unneeded, but useful property owned by the Agency.
Part Two:
Finally, as the second part of your request, you sought our assessment of: (1) the authorities the EEOC has to reduce emissions of heat-trapping pollution, (2) its authorities to make the nation more resilient to the effects of climate change,
and (3) the most effective additional steps it could take to reduce emissions or strengthen resiliency.
Response
The EEOC did not identify any specific authorities it has to reduce emissions of heat-trapping pollution or to make the nation more resilient to the effects of climate change. In this same connection, we do not have the expertise, at this time,
to make an independent accountable assessment of whether the EEOC possess such authorities, and to the extent that it does, what are the most effective additional steps it could take to reduce emissions or strengthen resiliency.
Should you have any questions or are in need of additional information, you may contact me at (202)663-4301 or via email at milton.mayo@eeoc.gov
Respectfully submitted,
Milton A. Mayo Jr.
Inspector General
Privacy Policy | Disclaimer | USA.Gov